Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





   PROTOCOL FOR ASSESSING 

    STATES’ MONITORING OF 

        SUBGRANTEES





                     Inspector General

                      December 2004
                     OEI-05-03-00062
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees state Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆
   A B S T R A C T




                   Many Federal programs are administered through Federal grants to
                   States and other entities. Increasingly, States are passing through
                   these Federal funds to subgrantees to carry out core program services.
                   According to Federal requirements, States must monitor their
                   subgrantees. However, these requirements are general, lacking the
                   specificity needed to evaluate States’ monitoring practices.

                   Federal stakeholders, including the Office of Management and Budget
                   (OMB) and Congress, have expressed concern that States are not
                   adequately monitoring their subgrantees, and that this may reflect a
                   lack of Federal agency oversight. Based on this concern, OMB created
                   an interdepartmental Task Force on Subrecipient Monitoring in 2002.
                   The Office of Inspector General has focused a number of its inspections
                   and audits on subgrantee monitoring as part of a broader effort to
                   review the management of grant programs under the Department of
                   Health and Human Services.

                   To assess States’ monitoring of subgrantees in a recent inspection,
                   “Oversight of States’ Subgrantee Monitoring in the Foster Care
                   Program” (OEI-05-03-00060), we developed measurable criteria based
                   on Federal grants management requirements. We anticipate that our
                   criteria will be useful to other oversight entities attempting to assess
                   States’ subgrantee monitoring. Toward that aim, this document
                   outlines the content of our criteria, the process we undertook to develop
                   these criteria, and the methodology we used to apply our criteria to
                   States’ monitoring of subgrantees in the foster care program.




 OEI-05-03-00062   CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES   i
∆
   T A B L E                    O F                 C O N T E N T S



                   ABSTRACT ....................................................... i



                   INTRODUCTION ................................................ 1




                   CRITERIA ....................................................... 4

                              Development of Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4 


                              Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5 


                              Using Criteria to Assess States’ Subgrantee Monitoring . . . . . . . . 6 




                   A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 



                   E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14





 OEI-05-03-00062          CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES                          ii
∆   I N T R O D U C T I O N



                  OBJECTIVE
                  To present a set of measurable criteria based on Federal grants
                  management requirements that can be used to assess States’
                  monitoring of subgrantees.


                  BACKGROUND
                  To assess States’ monitoring of subgrantees in a recent inspection,
                  “Oversight of States’ Subgrantee Monitoring in the Foster Care
                  Program” (OEI-05-03-00060), we developed measurable criteria based
                  on Federal grants management requirements. We anticipate that our
                  criteria will be useful to other oversight entities attempting to assess
                  States’ subgrantee monitoring. Toward that aim, this document
                  outlines the content of our criteria, the process we undertook to develop
                  these criteria, and the methodology we used to apply our criteria to
                  States’ monitoring of subgrantees in the foster care program.
                  Recent Federal Interest in Subgrantee Monitoring
                  In 2001, the Secretary of the Department of Health and Human
                  Services (HHS) created an initiative to improve the management of
                  HHS grant programs. The Assistant Secretary for Administration and
                  Management (ASAM) is taking a lead role in this effort. The Office of
                  Inspector General (OIG) has also undertaken a broad effort to study the
                  control, effectiveness, and value of HHS grant programs.

                  Federal stakeholders, including the Office of Management and Budget
                  (OMB) and Congress, have expressed concern that States are not
                  adequately monitoring their subgrantees, and that this may reflect a
                  lack of Federal agency oversight. Based on this concern, OMB created
                  an interdepartmental Task Force on Subrecipient Monitoring in 2002.
                  This task force is reviewing regulations and policies to identify whether
                  Federal guidance and oversight of subgrantee monitoring is adequate.1
                  Congress has also shown its concern by requesting reviews of
                  subgrantee monitoring in specific HHS programs.2
                  Recent Work by the Office of Inspector General
                  The OIG has reviewed subgrantee monitoring in several HHS programs.
                  The OIG recently examined monitoring of subgrantees in the Public
                  Health Preparedness and Response to Bioterrorism program and in the
                  Ryan White CARE Act program.3 In 2004, OIG examined States’
                  monitoring of subgrantees in the foster care program. This inspection
                  found that three of the six States reviewed lacked an adequate fiscal or

OEI-05-03-00062   CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES   1
I N T R O D        U C T        I O N


                    program monitoring mechanism, and that the Administration for
                    Children and Families pays minimal attention to States’ systems for
                    monitoring subgrantees. To assess States’ monitoring, we developed the
                    criteria that are presented in this technical report.
                    Grants Management Requirements
                    In HHS, responsibilities for State administration of Federal funds are
                    delineated by two sets of Federal requirements:
                    o 	 the Uniform Administrative Requirements (45 CFR Part 74 or
                         45 CFR Part 92),4 and
                    o 	 the Single Audit Act (implemented by OMB Circular A-133).

                    Specifically, the Uniform Administrative Requirements contain HHS
                    grants management regulations and incorporate OMB Circular A-133
                    by reference. Together, the regulations and circular set forth major
                    HHS grants management requirements, including a subset of
                    requirements that are specifically related to the administration of
                    subawards.

                    In accordance with these requirements, States have several different
                    responsibilities that are part of managing Federal grants passed
                    through to subgrantees. First, States must communicate basic grants
                    information to subgrantees.5
                    Second, States must monitor their subgrantees’ performance. According
                    to Federal grants management requirements6, States must:
                    o 	 Ensure that subgrantees are complying with program
                         requirements and achieving performance goals.
                    o 	 Ensure subgrantees are complying with fiscal requirements, such
                         as having appropriate fiscal controls in place, and are using
                         awards for authorized purposes.

                    States can ensure that subgrantees are meeting these requirements
                    through a variety of monitoring mechanisms, including progress
                    reports, site visits, financial reports, independent (third party) financial
                    audits, and/or internal (State-conducted) financial audits.

                    Finally, States must ensure that all subgrantees designated as
                    “subrecipients,” according to OMB Circular A-133, that meet the audit
                    threshold specified in the circular, receive a Single Audit.7 Single
                    Audits include a traditional financial audit of subgrantees’ basic
                    financial statements, as well as an auditor’s report on subgrantees’


 OEI-05-03-00062    CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES	   2
I N T R O D        U C T        I O N


                    internal controls, and an opinion on subgrantees’ compliance with
                    requirements of major Federal programs.




 OEI-05-03-00062    CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES   3
∆   C R I T E R I A


                  CRITERIA DEVELOPMENT
                  Grants management requirements for States monitoring of subgrantees
                  are general. States are required to “monitor the activities of
                  subrecipients as necessary to ensure that Federal awards are used for
                  authorized purposes in compliance with laws, regulations, and the
                  provisions of contracts or grant agreements and that performance goals
                  are achieved.”8 HHS has issued no further guidance or delineation on
                  what kind or level of monitoring is considered “necessary.” Thus, to
                  assess whether States are monitoring their subgrantees “as necessary,”
                  it is essential to define measurable criteria.

                  To develop criteria based on the general grants management
                  requirements, we consulted various grants management sources.
                  Specifically, we reviewed:

                  o 	 Federal requirements, including 45 CFR Part 74,
                      45 CFR Part 92, and OMB Circular A-133;

                  o 	 OMB Circular A-133 compliance supplements;

                  o 	 applicable HHS grants management guidance;

                  o 	 subgrantee monitoring guidance produced for other HHS programs;

                  o 	 guidance for other Federal departments;

                  o 	 industry guidance from Management Concepts and Thompson
                      Publishing Group;

                  o 	 grants management reports from the Government Accountability
                      Office (GAO), OIG, ASAM, and Assistant Secretary for Planning and
                      Evaluation; and

                  o 	 Single Audit reports containing subrecipient monitoring findings for
                      States’ foster care programs.

                  We presented our criteria to staff from ASAM in its draft form.9 The
                  ASAM staff found our criteria to be reasonable and consistent with
                  Federal requirements.




OEI-05-03-00062   CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES   4
C    R I T E R        I A          





                        CRITERIA
                        We developed these criteria as a set of minimum standards based on
                        Federal grants management requirements. Our goal was to develop
                        criteria specific enough to be measurable, yet general enough to allow
                        for variation in how States execute their monitoring of subgrantees.

                        Our criteria set forth the following framework for assessing whether or
                        not States were monitoring “as necessary:” States must have at least
                        one fiscal monitoring mechanism and one program monitoring
                        mechanism in place. In addition to assessing States’ program and fiscal
                        monitoring systems, we also examined their adherence to requirements
                        related to communicating required grants management information.

                FEDERAL REQUIREMENTS                                                                            CRITERIA
                                                 Program and Fiscal Monitoring

      States must:
      --“monitor the activities of subrecipients as
      necessary to ensure that Federal awards are
      used for authorized purposes in compliance with
      laws, regulations, and the provisions of contracts
      or grant agreements and that performance goals
                                                         States must have at least:
      are achieved.” [OMB Circular A-133,
      §__.400(d)(3)]
                                                         --one fiscal monitoring mechanism, and
      --“manage and monitor each project, program,
                                                                                      --one program monitoring mechanism
      subaward, function or activity supported by the
      award.” [45 CFR § 74.51(a)]

      --“monitor grant and subgrant supported activities
      to assure compliance with applicable Federal
      requirements and that performance goals are
      being achieved.” [45 CFR § 92.40(a)]

                                       Communication of Required Information

      States must provide subgrantees with the “best
                                                                                      States must at least inform subgrantees that the
      information available to describe the Federal
                                                                                      grant includes Federal funds.
      award.” [OMB Circular A-133, §__.400(d)(1)]


      States must advise subgrantees of requirements
                                                       States must inform subgrantees of Federal
      imposed on them by Federal laws and
                                                       grants management requirements.
      regulations. [OMB Circular A-133, §__.400(d)(2)]




    OEI-05-03-00062     CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES                    5
C    R I T E R        I A         




                       USING CRITERIA TO ASSESS STATES’ MONITORING OF
                       SUBGRANTEES: DATA COLLECTION AND ANALYSIS
                       This section demonstrates how we applied our criteria to assess States’
                       monitoring of subgrantees in the foster care program. First, we present
                       our methodology for collecting data from States, including three key
                       data collection instruments from our inspection. Each instrument is
                       presented in a half-page format and is followed by brief definitions and
                       instructions for use. Then, we turn to our analysis, which consisted of
                       comparing the data we collected with our criteria.
                       Data Collection
                       We examined States’ subgrantee monitoring through interviews with
                       staff and a review of States’ subgrantee files.
                       Interviews with monitoring staff. To understand the complexities of State
                       monitoring systems, we began by interviewing staff members
                       responsible for monitoring subgrantees. Typically, this included
                       interviews with fiscal, program, and licensing staff. We also reviewed
                       policies, protocols, and guidance related to subgrantee monitoring.

                       We used structured interviews aimed at gaining a full understanding of
                       the complex design of States’ systems for monitoring subgrantees. We
                       asked staff to describe each of their monitoring mechanisms, including
                       how frequently mechanisms were used to collect information, how the
                       information was reviewed, and how the State followed up on problems
                       that were identified during this process.

                       The following Monitoring System Summary table summarizes the
                       design of a State’s monitoring system, based on information gathered in
                       interviews and by reviewing monitoring protocols. After completing the
                       Monitoring System Summary, we used it as a guide when conducting
                       subgrantee file reviews. The summary provides information about
                       which monitoring mechanisms each subgrantee should have received
                       and indicates what documentation to expect in the file. The summary is
                       also useful at the analysis stage, when assessing whether the design of
                       a States’ monitoring system meets our criteria.




    OEI-05-03-00062    CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES   6
   C    R I T E R        I A          




                                Monitoring System Summary
                                                                                                                   State:
          Monitoring Mechanism                                   Frequency                              Review        Follow-up

                                               FISCAL MONITORING




                                            PROGRAM MONITORING




Monitoring Mechanism:
             List the name of the monitoring mechanism. This could include progress reports, site
             visits, financial reports, independent audits, State-performed audits, or other such
             approaches. Single Audits should be included under fiscal monitoring. If the
             mechanism does not apply to all subgrantees, indicate the subset for which the
             mechanism applies. Example: Monthly Progress Reports for group homes.

Frequency:       The number of times the mechanism should be used in your sample timeframe (we
                 used 1 year). Example: for Monthly Progress Reports, Frequency = 12.

Review:          Enter Y if State staff indicate that they review submitted information, or enter N if they
                 indicate that they do not review. For monitoring that the State conducts directly, such
                 as site visits, review should be coded N/A. Check the shaded box within the column if
                 staff indicate that their review is documented.

Follow up:       Enter Y if State staff indicate that they follow up with subgrantees, or enter N if they
                 indicate that they do not follow up. Check the shaded box within the column if staff
                 indicate that their follow up is documented.




       OEI-05-03-00062     CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES                  7
C    R I T E R        I A


                       Review of States’ subgrantee monitoring files: After gaining an
                       understanding of how States intended to monitor their subgrantees,
                       we used structured data collection instruments in our review of
                       subgrantee files. To verify whether States’ monitoring systems were
                       functioning as the State described, we reviewed documentation of
                       monitoring in a sample of subgrantee case files. For example, if a
                       State requires monthly fiscal reports, we reviewed each file for
                       evidence of 12 fiscal reports. Next, we reviewed the file for evidence
                       that the 12 reports had the type of review and follow up described by
                       the State.

                       We also assessed whether States met Single Audit requirements in
                       those States that required their subgrantees to have a Single Audit.
                       Namely, we assessed whether States followed up on all subrecipient
                       audit findings within the 6-month time period.

                       In cases where States were unable to provide us with documentation of
                       their monitoring activities onsite, we allowed them additional time to
                       locate and send us the documentation. In cases where documents were
                       unavailable, States were not given credit for carrying out monitoring for
                       these particular subgrantees.

                       We used the following Subgrantee Monitoring File Review worksheet to
                       record information from an individual subgrantee file. First, the
                       analyst enters the monitoring mechanisms and documentation
                       expected, using information in the Monitoring System Summary table
                       and from interviews. Then the analyst reviews the subgrantee
                       monitoring file and records what documentation is actually found in the
                       file. After completing a file review for each selected subgrantee, these
                       worksheets can be aggregated and used when analyzing whether States’
                       monitoring mechanisms are functioning as States described.




    OEI-05-03-00062    CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES   8
   C    R I T E R        I A         





                               Subgrantee Monitoring File Review
 Subgrantee ID# _____________________                                                                             State ________________

       Monitoring Mechanism                              Frequency                                     Review               Follow up

                                                   Expect                Actual                 Expect        Actual     Expect   Actual
                                            FISCAL MONITORING




                                         PROGRAM MONITORING




Monitoring Mechanism: 	          List the name of the monitoring mechanism. Example: Monthly
                                 Progress Reports.

Frequency (expect): 	            The number of times the mechanism should be used annually.
                                 Example: for Monthly Progress Reports, Frequency (expect) = 12.

Frequency (actual): 	            The number of times the mechanism was actually used for the sample
                                 year according to documentation in the monitoring file. Example: for
                                 a file that reflects 10 Monthly Progress Reports for the year, Frequency
                                 (actual) = 10.

Review (expect): 	               The number of times evidence of review is expected annually. If State
                                 staff indicate that they do not document their review, this number
                                 should be zero.

Review (actual): 	               The number of times review was documented (e.g., check marks or
                                 other notations indicating review) for the sample year.

Follow up (expect): 	            The number of times evidence of follow up is expected annually, or
                                 ‘U’ for unknown (e.g., if the State only follows up in cases where a
                                 problem is identified).

Follow up (actual): 	            The number of times evidence of follow up was found. Example: for
                                 a file that includes documented follow up for 8 of 12 Monthly Progress
                                 Reports, Follow up (actual) = 8, even if the file contains evidence of
                                 multiple follow up actions for individual reports.




       OEI-05-03-00062    CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES                            9
C    R I T E R        I A


                       Review of States’ subgrantee contracts and other communication: To assess
                       whether States had communicated required grants management
                       information to subgrantees, we reviewed State contracts, and other
                       forms of up-front communication to subgrantees. Specifically, we
                       reviewed documents for language informing subgrantees that they were
                       receiving Federal foster care funds and language informing subgrantees
                       of Federal grants management requirements.

                       The Contract, Policy Manual, Other Communication checklist is used to
                       review contracts and other forms of up-front communication between
                       the State and its subgrantees. The analyst can use the checklist to
                       record which requirements the State has communicated to its
                       subgrantees. After completing a checklist for each selected subgrantee,
                       these checklists can be aggregated and used when analyzing whether
                       States communicated information as required.




    OEI-05-03-00062    CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES   10
    C    R I T E R        I A         





                  Contract, Policy Manual, Other Communication Checklist
  Subgrantee ID# _____________________                                    	                                        State ________________

  I. Identify Federal awards UPFRONT by informing each subgrantee of the best information
  available to describe the Federal award. [OMB Circular A-133, §__.400(d)(1)]
         1. Identify that the subgrantee’s award includes Federal funds, at least implying that funds are
         Title IV-E foster care funds. 

                  ____ Yes         ____ No         


  II. Advise subgrantees of requirements imposed on them by Federal laws or regulations.
  [OMB Circular A-133, §__.400(d)(2)]
         1. 	45 CFR Part 74 or OMB Circular A-110, grants management requirements are:
                 ____ Explained        ____ Cited      ____ Implied ____ Not included

         2. 	OMB Circular A-133 Single Audit requirement (if applicable) are:
                ____ Explained         ____ Cited     ____ Implied ____ Not included

         3. 	Subgrantees are required to pass through these requirements to any subcontractors.
                 ____ Yes         ____ No

         4. Subgrantees are required to permit appropriate officials of the Federal agency and pass-

         through entity to have access to records and financial statements. 

         [OMB Circular A-133, §__.400(d)(7) and §__.200(d)]

                 ____ Yes         ____ No

I. Identify Federal Awards:
Check Yes if funds are identified to subgrantee as Federal.

II. Advise subgrantees of: 

45 CFR Part 74 and OMB Circular A-133 requirements: 

Check: 	Explained if Federal requirements are delineated in any way, (e.g., in a Single Audit manual).
        Cited if Federal requirements are cited but not explained, (e.g., “45 CFR Part 74”).
        Implied if Federal requirements are implied, but not cited or explained, (e.g., ”Subgrantee is
        responsible for all applicable State and Federal requirements”). This is the minimum States had
        to communicate to meet our criteria.

Pass through requirements:
Check Yes if the subgrantee is specifically informed that it must pass through requirements to any
       subcontractors that the subgrantee hires.

Access to records and financial statements:
Check Yes if subgrantee is specifically informed that it must allow oversight entities this access.

        OEI-05-03-00062    CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES                       11
C 	R I T E R       I A


                    Analysis of States’ Monitoring of Subgrantees
                    In analyzing the data we collected from States, we found it
                    straightforward to assess States’ communication of required information
                    to subgrantees using our criteria. However, to assess States’ program
                    and fiscal monitoring mechanisms, we needed to further define our
                    criteria.

                    We broke down fiscal and program monitoring into three basic
                    components: collecting information, reviewing the information
                    collected, and following up on identified problems. We defined follow up
                    to include communication back to the subgrantee regarding the results
                    of the State’s monitoring. Here are two acceptable examples: (1) the
                    State sends a letter of approval or corrective action to each subgrantee
                    after the annual site visit; (2) the State follows up by letter or phone call
                    only when a subgrantee’s progress report indicates a problem.

                    In States where subgrantees are required to have a Single Audit, we
                    defined follow up to include the specific Single Audit requirement that
                    States follow up on all audit findings within 6 months.

                    We operationalized our criteria to include standards for mechanisms’
                    design and functioning. Specifically, program and fiscal monitoring
                    mechanisms must meet the following standards:
                    o 	 Mechanism design is appropriate: The mechanism must be
                         designed to include all three basic components: collecting
                         information, reviewing the information collected, and following up
                         on identified problems. Further, the mechanism must be designed
                         to monitor all subgrantees.
                    o 	 Mechanism is functioning: The mechanism must be functioning
                         for all three basic components: collecting information, reviewing
                         the information collected, and following up on identified problems.
                         Use of the mechanism must be documented for 75 percent of the
                         subgrantee monitoring files reviewed. While we would expect the
                         monitoring to be documented in all files, we wanted to allow for a
                         small amount of error in States’ documentation of their
                         monitoring.




 OEI-05-03-00062    CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES	   12
∆
   A C K N O W L E D G M E N T S



                   This report was prepared under the direction of William C. Moran,
                   Regional Inspector General for Evaluation and Inspections in the
                   Chicago regional office. Other principal Office of Evaluation and
                   Inspections staff who contributed include:

                   Susan Otter, Team Leader
                   Ann Maxwell, Team Leader

                   Mara Siler-Price, Lead Analyst

                   Sara Zuiderveen, Intern

                   Linda Hall, Program Specialist

                   Elise Stein, Director, Public Health and Human Services Branch

                   Technical Assistance

                   Barbara Tedesco, Mathematical Statistician




 OEI-05-03-00062   CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES   13
∆
   E N D         N O T E S




                   1	   Task Force members include staff from: the Office of Management and
                        Budget (OMB); the Departments of Health and Human Services (HHS),
                        Transportation, Agriculture, Education, Justice, Labor, and Navy; the
                        Federal Emergency Management Agency; the National Science
                        Foundation; and the States of Louisiana and Texas.

                   2    A 2002 Government Accountability Office (GAO) study, “Welfare
                        Reform: Federal Oversight of State and Local Contracting can be
                        Strengthened,” GAO-02-661, 2002, examined State and local agency
                        monitoring of subgrantees receiving Temporary Assistance for Needy
                        Families funds, and found that ACF staff were not aware of monitoring
                        problems identified in States’ Single Audit reports. These audit reports
                        cited weaknesses in States’ monitoring, including inadequate fiscal and
                        program monitoring of local contracting entities.

                        Congress has also expressed concern that the Health Resources and
                        Services Administration (HRSA) does not adequately monitor grantees’
                        oversight of their subgrantees. Consequently, in 2001, the Senate
                        Finance Committee requested that the Office of Inspector General
                        (OIG) review HRSA’s oversight of Ryan White CARE Act Title I and
                        Title II grantees and grantees’ oversight of their subgrantees.

                   3	   The OIG issued 15 audit reports in 2003 on State and city monitoring of
                        subgrantees receiving Public Health Preparedness and Response to
                        Bioterrorism funds, citing that some States and major cities lacked
                        appropriate monitoring mechanisms. In addition, OIG responded to a
                        request by the Senate Finance Committee (see previous endnote), and
                        examined HRSA’s oversight of Ryan White CARE Act Title I and Title
                        II grantees and grantees’ oversight of their subgrantees.

                   4	   There are two sets of HHS regulations that provide Uniform
                        Administrative Requirements: 45 CFR Part 74, which typically applies
                        to awards to non-governmental entities and is based on OMB Circular
                        A-110, and 45 CFR Part 92, which typically applies to awards to
                        governmental entities and is based on OMB Circular A-102.

                   5	   OMB Circular A-133, §__.400(d)(1) and §__.400(d)(2).




 OEI-05-03-00062   CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES   14
                  6	   OMB Circular A-133, §__.400(d) states that “. . . a pass-through entity
                       shall perform the following for the Federal awards it makes:
                       . . . (3) Monitor the activities of subrecipients as necessary to ensure
                       that Federal awards are used for authorized purposes in compliance
                       with laws, regulations, and the provisions of contracts or grant
                       agreements and that performance goals are achieved.”

                  7	   Under OMB Circular A-133, certain subgrantees must have a specific
                       type of independent audit, called a Single Audit. Subgrantees exempt
                       from the Single Audit include all for-profit subgrantees, and those non-
                       profit subgrantees receiving less than $500,000 in total Federal awards.
                       Subgrantees considered to be “vendors” are also not subject to the
                       Single Audit. States use Federal guidelines delineated in OMB
                       Circular A-133, §__.210 to determine whether subgrantees are
                       “subrecipients” and thus subject to Single Audit requirements, or
                       “vendors” and not subject to a Single Audit. These guidelines
                       characterize “subrecipients” as subgrantees who carry out the program:
                       they may determine eligibility, make programmatic decisions, have
                       their performance judged against the program objectives, and they
                       must comply with program requirements. “Vendors” are characterized
                       as subgrantees who provide goods and services that are ancillary to the
                       operation of the program: they provide goods and services within
                       normal business hours to many different purchasers, operate in a
                       competitive environment, and are not subject to program requirements.
                       The guidelines direct States to use their judgment in making this
                       determination. We found that some States considered foster care
                       subgrantees to be “subrecipients,” and other States considered
                       subgrantees providing the same core services to be “vendors.”

                  8	   OMB Circular A-133, §__.400(d)(3).

                  9	   Staff from the Office of the Assistant Secretary for Administration and
                       Management were presented with and approved our draft criteria. We
                       did not present them with the methodology we used to operationalize
                       the criteria.




OEI-05-03-00062   CRITERIA   FOR   A S S E S S I N G S TAT E S ’ M O N I T O R I N G   OF   SUBGRANTEES	   15
